HHS/OIG, Audit - "Review of Medicaid Payments for Outpatient Services and Prescription Drugs Provided to Incarcerated Recipients in the State of Florida," (A-04-01-05011)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Payments for Outpatient Services and Prescription Drugs
Provided to Incarcerated Recipients in the State of Florida," (A-04-01-05011)
October 31, 2002
Complete Text of Report is available in PDF format
(929 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine the extent to which the state
used Medicaid funds to pay for prescription drugs and other (non-inpatient/long
term care) health care services provided to inmates.  We found that Medicaid
fee-for-service payments for outpatient services and prescription drugs were
made for incarcerated recipients resulting in an estimated Medicaid overpayment
of $2,597,773 ($1,450,077 federal share).  The State of Florida generally
concurred with our findings and recommendations.